HHS/OIG-Audit--"Review of Outpatient Psychiatric Services Provided by the Franklin Medical Center for the Fiscal Year Ending September 30, 1996, (A-01-98-00503)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Psychiatric Services Provided by the Franklin Medical Center for the Fiscal Year Ending September
30, 1996," (A-01-98-00503)
November 19, 1998
Complete
Text of Report is available in PDF format (1.82 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the Franklin Medical Center (FMC) was paid at least $646,517 for outpatient psychiatric
services provided in Fiscal Year 1996 that did not meet the Medicare criteria for reimbursement. Specifically, (1) nursing
home psychiatric services were provided by clinical social workers who were not properly supervised by a physician; (2)
charges for psychiatric care was not properly supported by medical records or otherwise were found medically unnecessary;
and (3) FMC overhead charges were submitted to Medicare for the associated costs of FMC employees working off-site at area
nursing homes. In addition to a financial adjustment, we recommended that FMC strengthen its procedures to ensure that
charges for outpatient psychiatric services are for covered services and are properly documented in accordance with Medicare
requirements.